                                   News From
                         The Office of Inspector General
                   Corporation for National and Community Service



Idaho Embezzlers Sentenced

Two former staff members of an Idaho Foster Grandparents Program have received stiff
sentences in Federal court after pleading guilty to embezzling $62,000 in Corporation
grant funds following an investigation by the Office of Inspector General.

Summer Dance, former administrative assistant with Foster Grandparents of Southeast
Idaho; and Sandra Colbath, the program’s former field coordinator; were both
sentenced July 19, 20ll, in U.S. District Court in Pocatello, ID. They had both admitted
to embezzling grant funds by writing themselves extra paychecks and by using the
program’s credit card to make personal purchases.

Dance was sentenced to spend 6 consecutive weekends in jail, 9 months of home
confinement, 5 years of probation and to make full restitution of $62,000.

Colbath was ordered to repay $13,902 in embezzled funds and advised that, if she
failed to make restitution, Dance would assume her debt, She was also ordered to
spend 90 days in home confinement and 5 years on probation.

The case was investigated by OIG special Agents William Ruley and Casey Bates.
